No. 19-968

 

 

IN THE

Supreme Court of the United States

CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,

Petitioners,
Vv.

STANLEY C. PRECZEWSKI ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF FOR THE NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC. AS AMICUS CURIAE
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,205 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 29, 2020.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
